No. 20-5996

IN THE ,

Supreme Court of the United States

 

JAMAAL HOWARD,
Petitioner,
v.

BOBBY LUMPKIN, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

 

PROOF OF SERVICE

 

I hereby certify that on November 12, 2020, one copy of Respondent’s
Brief in Opposition was sent via third-party commercial carrier and
electronic mail to Petitioner’s counsel Don Bailey, 309 N. Willow, Sherman, TX
75090, donbailey46@hotmail.com. All parties required to be served have been
served. Iam a member of the Bar of this Court.

KATHERINE D. HAYIES
Assistant Attorney General
Criminal Appeals Division

P.O. Box 12548, Capitol Station
Austin, Texas 78711

(512) 936-1400

katherine. hayes@oag.texas.gov

Counsel for Respondent
